              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The Retention and Management of
the Department’s Records




DOE/IG-0685                                 April 2005
REPORT ON THE RETENTION AND MANAGEMENT OF THE
DEPARTMENT'S RECORDS_______



TABLE OF
CONTENTS



              Retention and Management of the Department's Records


              Details of Finding............................................................. 1

              Recommendations and Comments ................................. 6

              Comments ....................................................................... 7


              Appendices


              1. Objective, Scope, and Methodology ........................ 11

              2. Prior Reports............................................................ 13

              3. Management Comments.......................................... 14
RETENTION AND MANAGEMENT OF THE
DEPARTMENT'S RECORDS
Managing Records                    The Department of Energy (Department) did not effectively
                                    manage the retention and disposition of its records. 1
                                    Specifically, the Department did not always ensure that
                                    essential electronic records, especially electronic mail
                                    (e-mail), were appropriately retained. Additionally, the
                                    Department maintained multiple document and tracking
                                    systems that performed essentially the same function, and
                                    had not adequately planned for the scheduling and
                                    disposition of records at its closure sites.

                                                    Electronic Records Management

                                    The Department had not effectively managed many of its
                                    electronic records. The majority of the Department's
                                    records originate in an electronic form and many must be
                                    preserved for future business operations. We identified
                                    issues with e-mail and other electronic information, as well
                                    as system development records management requirements.

                                    Even though e-mail has become a predominant method of
                                    conducting business in the Department, only 1 of the 12
                                    sites we reviewed maintained a records system for
                                    managing such information. While many e-mails do not
                                    contain policy or communications worthy of retention,
                                    many others do and must be preserved as part of the
                                    Department's system of records. Furthermore, we found 6
                                    of 12 sites reviewed did not provide guidance on retaining
                                    e-mail. Additionally, 5 of 12 sites instructed employees to
                                    print out and retain hard copy documents of e-mail – a
                                    costly and antiquated method of records retention.

                                    Additionally, 11 of 12 sites included in our review did not
                                    have systems to schedule and dispose of other electronic
                                    information. The 11 sites printed out and retained paper
                                    copies as the official record, thus increasing the cost of
                                    records retention. While Department officials have
                                    encouraged the use of electronic records management
                                    systems - systems that facilitate preservation, retrieval, use,

1
  Federal Records Act (44 U.S.C. 3301) defines records as follows: "Records include all books, papers,
maps, photographs, machine readable materials, or other documentary materials, regardless of physical
form or characteristics, made or received by an agency of the United States Government under Federal law
or in connection with the transaction of public business and preserved or appropriate for preservation by
that agency or its legitimate successor as evidence of the organization, functions, policies, decisions,
procedures, operations, or other activities of the Government or because of the informational value of data
in them."

________________________________________________________________
Page 1                                            Details of Finding
                      and disposition of records - only one site we reviewed had
                      such a system. Furthermore, many sites we visited
                      employed document management systems that would store
                      electronic documents until they would ultimately be printed
                      for archiving.

                      Finally, the Department had not integrated records
                      management requirements into its information system
                      development process. For example, one site incurred
                      additional costs to print and scan documents into an
                      electronic environmental, safety and health database
                      because the system did not allow the information to be
                      imported in its original, electronic form. Both the National
                      Archives and Records Administration (NARA) and the
                      Office of Management and Budget have established that
                      records management requirements should be built into all
                      information systems. These requirements include the
                      ability to identify, schedule, maintain, and dispose of
                      electronic records. Specifically, NARA requires that
                      agencies incorporate data disposition instructions into the
                      system's overall design. Department officials informed us
                      that the Corporate Human Resource Information System is
                      the only corporate system that has been designed to
                      properly maintain and schedule the disposition of the
                      electronic records it creates. All other corporate systems
                      developed by the Department had not incorporated records
                      management requirements at the time of our review.

                            Document Management and Tracking Systems

                      Several of the sites maintained multiple document
                      management systems that stored electronic records and
                      tracking systems to track paper records that performed
                      essentially the same function. For example, the Oak Ridge
                      Reservation (Reservation) maintained multiple document
                      management systems capable of storing electronic records,
                      but not scheduling or disposing of them. This site also
                      maintained multiple tracking systems that identified the
                      location of paper records. Specifically, the Reservation
                      maintained six document management systems and four
                      tracking systems costing over $1.7 million per year to
                      operate and maintain. The East Tennessee Technology
                      Park had four of these systems at the Reservation, each for
                      a different organization. Our findings in this area are
                      consistent with a recent Department study on records

________________________________________________________________
Page 2                                            Details of Finding
                      management systems that concluded there were numerous
                      duplicative records management systems across the
                      complex that keep multiple copies of the same document
                      and do not share information.

                                           Closure Site Issues

                      The Department had not adequately planned for scheduling
                      and disposition of paper records at its closure sites. For
                      example, at the time of our review, the Fernald site had
                      approximately 18,500 boxes of unscheduled records that it
                      may not be able to properly schedule and archive prior to
                      the 2006 site closure. Although the majority of Fernald
                      records were scheduled, NARA officials informed us that a
                      recent review of the site estimated that almost half of the
                      records were scheduled incorrectly. For example, records
                      with different retention periods were stored within the same
                      box or, in other cases, the description of the records was
                      found to be inadequate for identification purposes.

                      Other closure sites have also identified issues related to the
                      retention and timely disposition of its paper records. For
                      instance, the only significant Environmental Management
                      site that has been closed, Pinellas, had numerous
                      difficulties in managing its records upon closure, including
                      scheduling records for disposal. Ensuring adequate
                      retention of records is particularly critical at closure sites
                      due to the potential of long term environmental and health
                      concerns and the increased risk that the Department would
                      not be able to readily find records important to the health of
                      former employees.


Records Management    Problems we noted during our review occurred because
Program               the Department had not developed and implemented an
                      adequate records management policy or placed sufficient
                      emphasis on this mission support activity.

                                    Records Management Guidance

                      Although the Office of the Chief Information Officer (CIO)
                      recently developed draft policy to support a comprehensive
                      records management program, the policy lacks specificity.
                      For example, it does not establish a requirement for
                      retaining electronic records, including e-mails, in their
                      original form, or for including records management in the

________________________________________________________________
Page 3                                            Details of Finding
                       life cycle of information systems. In addition, specific
                       guidance is needed to establish a corporate solution for
                       establishing records management systems to prevent the
                       development of duplicate records management systems.
                       After the completion of audit field work, CIO officials
                       informed us that a records management manual designed to
                       implement current policy was being developed. The to-be-
                       completed manual is to include chapters on electronic
                       records and e-mails.

                                      Senior Management Attention

                       Based on our conversations with site and program officials,
                       we learned that records management at the Department is
                       generally perceived as a low priority and has not received
                       sufficient senior management attention. For example, in
                       June 1999, the Office of the CIO initiated a pilot project to
                       develop a corporate e-mail records management system.
                       Although the pilot was completed, the initiative was never
                       fully developed or rolled out agency-wide. Despite the
                       expenditure of over $350,000, the pilot project was
                       terminated after two years of effort. In addition to
                       technical and functional issues that impacted complex-wide
                       implementation, CIO officials cited higher priorities as a
                       barrier to implementation.

                       In a recent study conducted by NARA, lack of senior
                       management emphasis on records management within the
                       Department was also cited as a factor in poor records
                       management. The report, which included several agencies,
                       cited the lack of involvement or influence by the senior
                       records managers on programmatic business processes or
                       the development of information systems designed to
                       support them. In light of this finding, NARA recently
                       issued guidance recommending that agencies elevate the
                       position of agency senior records managers to report
                       directly to the CIO in order to increase their
                       visibility and authority. Currently the senior records
                       manager at the Department reports to the Associate CIO for
                       Business and Information Management. A NARA official
                       suggested that elevating this reporting relationship has
                       improved records management at other agencies.


Department's Records   Without improvements to its records management
at Risk                program, the Department is at risk of losing vital

________________________________________________________________
Page 4                                            Details of Finding
                      information and expending more than necessary to
                      maintain its records. The loss of information is particularly
                      critical at closure sites due to their need to retain records
                      for environmental and health concerns. In addition, should
                      these documents become lost or misplaced, reconstruction
                      could be costly to the Department. For example, a survey
                      in a recent information technology trade publication
                      estimates that the average cost to recreate a single lost
                      document is $180.

                      The need to efficiently manage electronic records was
                      recently demonstrated by the Department's effort to
                      populate the Nuclear Regulatory Commission's Licensing
                      Support Network as part of its effort to license the Yucca
                      Mountain disposal project. As we reported in Management
                      Controls Over the Licensing Support Network for the Yucca
                      Mountain Repository (OAS-M-04-04, May 2004),
                      employees were required to manually review, classify, and
                      catalogue millions of e-mail messages prior to posting them
                      to the licensing network. At the time of the review, about
                      6.4 million e-mails remained unprocessed due to the lack of
                      system requirements for archiving e-mail records.

                      Conversion of e-mail records to hard copy may also pose
                      problems for the Department in future legal proceedings.
                      Specifically, a court ruling on computer data determined
                      that an e-mail converted into hard copy was not considered
                      to be properly preserved. The court stated that records
                      need to be preserved in their original or identical form, to
                      include logs and other information contained within an e-
                      mail. Additionally, a recent Government Accountability
                      Office report on electronic records stated that e-mails may
                      contain multiple attachments linked within the message
                      which cannot be readily converted to paper or text formats
                      without the loss of context, functionality, and information.

                      The Department is also incurring increased costs to store
                      paper records that were originally in electronic form.
                      Despite the growth in generating electronic records, the
                      Department continues to store over 820,000 cubic feet of
                      inactive paper records at multiple locations. We found
                      paper records storage costs in excess of $9.50 per cubic
                      foot while the cost of storing records in an electronic form
                      would be considerably less.




________________________________________________________________
Page 5                                            Details of Finding
                     Savings could also be realized by consolidating the
                     Department's records and document management systems.
                     For example, the Richland Site recently integrated
                     12 records management systems into a single electronic
                     records management system and projected over $6 million
                     cost savings. The Department estimates that it can achieve
                     additional savings in excess of $2 million by adopting a
                     corporate approach to consolidate records management
                     systems and eliminate future development of redundant
                     systems across the complex.


RECOMMENDATIONS      To improve records management across the complex, we
                     recommend that the Chief Information Officer, in
                     conjunction with the National Nuclear Security
                     Administration and cognizant program officials:

                     1. Develop and finalize detailed policy and implementing
                        guidance to support complex-wide records management
                        policy. Such guidance should address requirements for:

                              a. storing electronic records, managing e-mail,
                                 and incorporating records management into
                                 the system life cycle; and,

                              b. a corporate solution to eliminate duplicate
                                 systems and consideration of existing systems
                                 when approving new records management
                                 projects.

                     2.   Review the organizational placement of the senior
                          records manager to ensure that the position has
                          sufficient authority to include responsibility for
                          leading, planning and managing the
                          Department/Agency records management program.


MANAGEMENT           Management generally concurred with the findings and
REACTION             agreed with the recommendations presented in the report.
                     Management noted the implementation of records
                     management is decentralized within the Department and
                     that the elimination of duplicate systems is a complex issue.




________________________________________________________________
Page 6                              Recommendations and Comments
                     Management stated that the Office of the CIO began in
                     Fiscal Year 2005 to address e-records requirements through
                     the Capital Planning and Investment Control (CPIC)
                     process, the approval and funding mechanism for
                     technology investments. The Office of the CIO also
                     indicated the office does not have the authority to dictate
                     program records activities.

                     Management asserted that OMB has not required that
                     records management be built into all information
                     management systems and noted that our report was only
                     partially correct in three areas discussed below.

                     First, management acknowledged that sites may maintain
                     multiple records management systems as was the case at
                     the Oak Ridge Reservation, but noted that our conclusions
                     related to duplicate systems was only partially correct.
                     Management added that the existence of duplicative
                     systems was a program, contractor, and funding issue.
                     Specifically, Management stated that the Oak Ridge
                     Reservation operates projects for every DOE Program
                     Element, using different contractors and funding sources
                     for each. Additionally, funding is not usually provided in
                     the new contract for management of existing systems
                     and/or migration to new systems. However, Management
                     agreed that savings may be possible from the elimination of
                     duplicate systems.

                     In addition, Management stated our conclusion regarding
                     the inadequate disposition of paper records at closure sites
                     was only partially correct. Management stated that
                     disposition schedules have been developed, approved by
                     NARA, and placed on the Office of CIO website.
                     Management explained that the Fernald records
                     management problem is a common one for closing sites.
                     Furthermore, Management stated that the Pinellas site
                     closure occurred in 1993 and the disposition schedule for
                     environmental records was not approved by NARA until
                     May 2000. Additionally, trained, experienced personnel
                     leave closure sites as soon as possible and, since records
                     disposition is one of the functions that is active until and
                     after closure, remaining and often inexperienced
                     individuals are assigned these responsibilities.




________________________________________________________________
Page 7                                                 Comments
                     Finally, Management stated that our conclusion that the
                     Department is at risk of losing vital information also was
                     only partially correct. Management explained that
                     continued storage of paper is an issue not easily resolved
                     because of moratoria on litigation, worker safety and
                     health, and epidemiology records. Specifically, some sites
                     have determined that once the moratoria are lifted, the
                     records can then be destroyed and it may not be worth the
                     expenditure to scan older records or try to manage them
                     electronically. Additionally, Management agrees that a
                     consolidated approach to records management will address
                     the problems of records storage. To address closure site
                     issues, the Office of Legacy Management (Legacy
                     Management) is currently building a centralized storage
                     facility and has established an information system for
                     storing e-records.

                     Management's comments are included in their entirety in
                     Appendix 3.

                     Legacy Management also provided comments on our report
                     on March 17, 2005, separate from the Department's
                     consolidated response. Legacy Management agrees that
                     records management requirements need to be addressed in
                     Departmental policy and that closure site records
                     management processes are lacking. Legacy Management
                     had several concerns with the conclusions in our report
                     including:

                          •   The report does not address the Department's
                              management of classified records;
                          •   The Department is not, in fact, in the early stages
                              of planning a corporate system to link records
                              management across the complex; and,
                          •   The closure site contracts do not include specific
                              records management clauses.


AUDITOR COMMENTS     We consider Management's comments and planned action
                     to be responsive to the recommendations. Contrary to
                     Management's assertion that OMB does not require records
                     management be built into systems, we noted that OMB
                     Circular A-11 instructions for preparing business cases for
                     information systems require agencies to address "…how the
                     system will manage the business information (records) that
                     it will contain throughout the information life cycle."

________________________________________________________________
Page 8                                                 Comments
                     With regard to the areas that Management considered to be
                     partially correct, in subsequent conversations with
                     Management, the Departmental Records Officer explained
                     that the Department generally agreed with our conclusions
                     in the report and sought no changes to the report language.
                     Management indicated that it noted that the report was only
                     partially correct to highlight additional information and
                     causes not cited in the report. Management officials told us
                     that the additional comments were not meant to dispute any
                     of the facts presented in the report.

                     As to duplicative systems being a program, contractor, and
                     funding issue, we agree and believe that guidance to move
                     the Department toward a corporate solution for records
                     management should help eliminate the existence of
                     multiple document management and tracking systems
                     across the Department. Although we cite the Oak Ridge
                     Reservation as our example in the report, we found the
                     same issues at other locations with multiple co-located
                     organizations. Further, we agree that a corporate solution
                     would eliminate the need for stand-alone, site-specific
                     systems, such as the ones at the Oak Ridge Reservation.

                     We recognize that the Department has made progress with
                     managing records at closure sites, but several problems still
                     exist. We agree that trained, experienced personnel leave
                     as soon as possible at closure sites and believe this adds to
                     the urgency for the Department to act, since records
                     disposition is one of the functions that is active until, and
                     after, closure.

                     We agree with Management's comments drawing attention
                     to the fact that the risk of losing records from closure sites
                     is particularly urgent and its explanation that continued
                     storage of paper is an issue not easily resolved because of
                     moratoria on litigation, worker safety and health and
                     epidemiology records. While we do not propose scanning
                     and maintaining electronic copies of existing paper or
                     legacy records, we do believe that future management of
                     records electronically would cost considerably less than
                     maintaining paper copies.




________________________________________________________________
Page 9                                                 Comments
                     With regard to Legacy Management's comments, while our
                     review primarily focused on unclassified records, we did
                     not exclude classified records from the scope of our audit.
                     While Legacy Management disagrees that the Department
                     is in the early stages of planning a corporate records
                     management system, our review found that the
                     Department's eContent Management System, currently in
                     the planning phase, is intended to modernize and integrate,
                     among other things, the Department's electronic records
                     and document management. While we understand Legacy
                     Management's concern, our review of the Fernald contract
                     confirmed that the contractor was required to comply with
                     all Department directives and guidance, including those on
                     records management.




________________________________________________________________
Page 10                                                Comments
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Department effectively managed its records.


SCOPE                 The audit was performed between October 2003 and
                      and December 2004 at Department Headquarters in
                      Washington, DC; the Oak Ridge Reservation in Oak Ridge,
                      TN; the Los Alamos National Laboratory in Los Alamos,
                      NM; the Sandia National Laboratory and the National
                      Nuclear Security Administration Service Center in
                      Albuquerque, NM; the Miamisburg Closure Project in
                      Miamisburg, OH; and the Ohio Field Office and Fernald
                      Closure Project in Springdale, OH. We also obtained
                      information from the Kansas City Site Office and the
                      Kansas City Plant in Kansas City, MO. Although our
                      review primarily focused on unclassified records, we did
                      not exclude classified records from the scope of our audit.


METHODOLOGY           To accomplish our objective, we:

                           •   Reviewed applicable laws and regulations
                               pertaining to retention and management of
                               records;

                           •   Reviewed the Government Performance and
                               Results Act of 1993 and determined if
                               performance measures had been established for
                               retention and management of records;

                           •   Reviewed numerous National Archives Records
                               Administration documents related to the retention
                               and management of records; and,

                           •   Held discussions with program officials and
                               personnel from the Department, including
                               representatives from the Offices of the Chief
                               Information Officer; Legacy Management;
                               Science; Environmental Management;
                               Management, Budget and Evaluation; and the
                               National Nuclear Security Administration.

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent

________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      necessary to satisfy the audit objectives. We assessed
                      significant internal controls and performance measures in
                      accordance with the Government Performance and Results
                      Act of 1993 regarding the management of the Department's
                      records. There were no specific performance measures for
                      records. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies
                      that may have existed at the time of our audit. We did not
                      rely on computer-processed data to accomplish our audit
                      objective.

                      Officials from the Office of Legacy Management waived
                      an exit conference on April 4, 2005. In addition, officials
                      from the Office of the Chief Information Officer waived an
                      exit conference on April 11, 2005.




________________________________________________________________
Page 12                            Objective, Scope, and Methodology
Appendix 2


                                   PRIOR REPORTS


•   Special Report on Management Challenges at the Department of Energy, (DOE/IG-
    0667, November 2004). As previously reported, information management remains a
    management challenge within the Department. Past reports have highlighted
    challenges in numerous areas of the information technology program, including
    adequate protection of the Department's data and computer systems.

•   Management Controls Over the Licensing Support Network for the Yucca Mountain
    Repository, (OAS-M-04-04, May 2004). The Department experienced problems in
    screening electronic documents, including e-mail, to ensure that sensitive
    unclassified, Privacy Act, and privileged information was not inadvertently posted on
    the licensing support network. Specifically, the audit review found that 6.4 million e-
    mail documents were not processed, due to the need for manual reviews of the
    information. The report cited a lack of information archiving requirements as one of
    the causes for the delay in processing the information.

•   Information Management: Challenges in Managing and Preserving Electronic
    Records (GAO-02-586, June 2002). The National Archives and Records
    Administration (NARA) has concluded that although agencies are creating and
    maintaining records appropriately, most electronic records (including databases of
    major Federal information systems) remain unscheduled (that is, their value has not
    been assessed nor their disposition determined), and records of historical value are
    not being identified and provided to NARA for archiving. As a result, valuable
    electronic records may be at risk of loss. The Government Accountability Office
    (GAO) found that part of the problem is that records management guidance is
    inadequate in the current technological environment of decentralized systems
    producing large volumes of complex records; the low priority often given to records
    management programs; and, the lack of technology tools to manage electronic
    records.




________________________________________________________________
Page 13                                              Prior Reports
Appendix 3




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 15                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 16                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 17                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 18                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 19                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 20                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 21                                     Management Comments
                                                             IG Report No. DOE/IG-0685

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
